No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________________
JAMES MILTON DAILEY
PETITIONER
VS.
STATE OF FLORIDA
RESPONDENTS
_________________________
PROOF OF SERVICE
I, Chelsea Rae Shirley, do swear or declare that on this date, January 21, 2020, as required by
Supreme Court Rule 29 I have served the enclosed UNOPPOSED APPLICATION FOR
TWENTY (20) DAY EXTENSION OF TIME IN WHICH TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE FLORIDA SUPREME COURT on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
Stephen Ake, Assistant Attorney General
Timothy Freeland, Assistant Attorney General
Office of the Attorney General
Concourse Center 4
3507 E Frontage Rd
Suite 200
Tampa, FL 33607
Stephen.Ake@myfloridalegal.com
Timothy.Freeland@myfloridalegal.com

1

I declare under penalty of perjury that the foregoing is true and correct.

ft sea Rae Shirley
orida Bar No. 112901
Law Office of The Capital Collateral Regional Counsel
12973 N . Telecom Parkway
Temple Terrace, Florida 33637
Phone No. (813) 558-1600
Fax No. (813) 558-1601

Executed on January 21, 2020

2

